Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW
OF LAHEY CLINIC FOR CALENDAR
     YEARS 2009 AND 2010


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                      David Lamir
                                                     Acting Regional
                                                    Inspector General

                                                        April 2013
                                                      A-01-12-00502
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, intended to be
payment in full to the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Lahey Clinic (the Hospital) is a 317-bed teaching hospital of Tufts University School of
Medicine, located in Burlington, Massachusetts. Medicare paid the Hospital approximately
$351 million for 25,501 inpatient and 599,075 outpatient claims for services provided to
beneficiaries during calendar years (CY) 2009 and 2010 based on CMS’s National Claims
History data.

Our audit covered $2,411,614 in Medicare payments to the Hospital for 389 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2009 and 2010 and consisted of 132 inpatient and 257 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 95 of the 389 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 294 claims, resulting in net overpayments of $736,220 for
CYs 2009 and 2010. Specifically, 87 inpatient claims had billing errors, resulting in net
overpayments of $582,777, and 207 outpatient claims had billing errors, resulting in
overpayments of $153,443. These overpayments occurred primarily because the Hospital’s
existing controls did not adequately prevent incorrect billing of these Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $736,220, consisting of $582,777 in overpayments for
       the incorrectly billed inpatient claims and $153,443 in overpayments for the incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

LAHEY CLINIC COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital concurred with most of our findings and
recommendations but disagreed that it incorrectly billed 11 claims for inpatient short stays. For
these claims, we maintain that the stays did not meet the medical necessity requirements for
inpatient admissions.

The Hospital stated that it is committed to complying with all regulations and standards
governing Federal health care programs, improving internal controls, and proactively auditing
and monitoring to minimize the risk of errors. We acknowledge the Hospital’s efforts to
implement stronger controls.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Claims at Risk for Incorrect Billing ................................................................1
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Lahey Clinic ...................................................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrectly Billed as Inpatient ........................................................................................5
          Incorrectly Billed as Separate Inpatient Stays ...............................................................5
          Incorrectly Billed Diagnosis-Related Group Codes ......................................................6
          Manufacturer Credit for a Replaced Medical Device Not Reported .............................6

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................6
          Incorrectly Billed as Outpatient ....................................................................................6
          Incorrectly Billed Evaluation and Management Services, Number of Units,
            or Healthcare Common Procedure Coding System Codes .........................................7
          Services Not Billable to Medicare.................................................................................7
          Manufacturer Credits for Replaced Medical Devices Not Reported ............................7
          Incorrectly Billed Observation Services .......................................................................8
          Incorrectly Billed Outpatient Services With Modifier -59 ...........................................8

      RECOMMENDATIONS .......................................................................................................9

      LAHEY CLINIC COMMENTS AND OFFICE OF INSPECTOR GENERAL
       RESPONSE.........................................................................................................................9

APPENDIXES

             A: RISK AREAS REVIEWED AND BILLING ERRORS

             B: LAHEY CLINIC COMMENTS



                                                                     iii
                                                 INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 2 All services and items within an APC group are
comparable clinically and require comparable resources. In addition to the basic prospective
payment, hospitals may be eligible for an additional payment, called an outlier payment, when
the hospital’s costs exceed certain thresholds.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG

1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. Examples of these types of claims at risk for noncompliance included the following:

    •   inpatient short stays,

    •   inpatient same-day discharges and readmissions,

    •   inpatient transfers,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient and outpatient claims paid in excess of charges,

    •   outpatient dental services,

    •   outpatient claims billed with services performed during the DRG payment window,

    •   outpatient claims billed with modifier -59,

    •   outpatient claims billed with evaluation and management (E&M) services,

    •   outpatient claims billed with observation services that resulted in outlier payments, and

    •   outpatient services billed during home health episodes.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, § 1833(e) of the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, § 80.3.2.2,
requires providers to complete claims accurately so that Medicare contractors may process them

                                                   2
correctly and promptly. Chapter 23, § 20.3, of the Manual states that providers must use HCPCS
codes for most outpatient services.

Lahey Clinic

Lahey Clinic (the Hospital) is a 317-bed teaching hospital of Tufts University School of
Medicine, located in Burlington, Massachusetts. Medicare paid the Hospital approximately $351
million for 25,501 inpatient and 599,075 outpatient claims for services provided to beneficiaries
during calendar years (CY) 2009 and 2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $2,411,614 in Medicare payments to the Hospital for 389 claims that we
judgmentally selected as potentially at risk for billing errors. These 389 claims consisted of 132
inpatient and 257 outpatient with dates of service in CYs 2009 and 2010.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 14
claims to focused medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork from November 2011 through August 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2009 and 2010;

                                                 3
   •   obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for CYs 2009 and 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   judgmentally selected 389 claims (132 inpatient and 257 outpatient) for detailed review;

   •   reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

   •   requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

   •   used CMS’s Medicare contractor medical review staff to determine whether 14 selected
       claims met medical necessity requirements;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   requested that the Medicare contractor provide an educational session in the form of a
       webinar to the Hospital addressing the Medicare requirements for inpatient and outpatient
       status, and observation services;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 95 of the 389 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 294 claims, resulting in net overpayments of $736,220 for

                                                4
CYs 2009 and 2010. Specifically, 87 inpatient claims had billing errors, resulting in net
overpayments of $582,777, and 207 outpatient claims had billing errors, resulting in
overpayments of $153,443. Overpayments occurred primarily because the Hospital did not have
adequate controls to prevent incorrect billing of Medicare claims and did not fully understand the
Medicare billing requirements within the selected risk areas that contained errors. For a detailed
list of the risk areas that we reviewed and associated billing errors, see Appendix A.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 87 of the 132 selected inpatient claims that we
reviewed. These errors resulted in net overpayments of $582,777.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 59 of the 132 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. The
Hospital stated that this occurred due to a lack of clear physician documentation supporting
inpatient care and the lack of an administrative workflow process to capture clerical errors. As a
result of these errors, the Hospital received overpayments of $339,324. 3

Incorrectly Billed as Separate Inpatient Stays

The Manual, chapter 3, § 40.2.5, states:

         When a patient is discharged/transferred from an acute care Prospective Payment System
         (PPS) hospital, and is readmitted to the same acute care PPS hospital on the same day for
         symptoms related to, or for evaluation and management of, the prior stay’s medical
         condition, hospitals shall adjust the original claim generated by the original stay by
         combining the original and subsequent stay onto a single claim.

For 22 of the 132 selected claims, the Hospital billed Medicare separately for related discharges
and readmissions within the same day. The Hospital stated that this occurred because it lacked
an administrative workflow process to capture clerical errors. As a result of these errors, the
Hospital received net overpayments of $199,977.




3
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.

                                                         5
Incorrectly Billed Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, the Manual, chapter 1,
§ 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately ….”

For 5 of the 132 selected claims, the Hospital billed Medicare for incorrect DRG codes. The
Hospital stated that this occurred because not all cases were reviewed and its coding staff
misinterpreted the coding guidelines. As a result of these errors, the Hospital received
overpayments of $42,676.

Manufacturer Credit for a Replaced Medical Device Not Reported

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider, (2)
the provider receives full credit for the cost of a device, or (3) the provider receives a credit equal
to 50 percent or more of the cost of the device.

The Manual, chapter 3, § 100.8, states that to correctly bill for a replacement device that was
provided with a credit, hospitals must use the combination of condition code 49 or 50, along with
value code “FD.”

For 1 of the 132 selected claims, the Hospital received a reportable medical device credit
from a manufacturer for a replaced device, but did not adjust its inpatient claim with the
proper condition and value codes to reduce payment as required. The Hospital stated that
this claim was the result of a “timing issue” and not an issue with its process to report
medical device credits. As a result of this error, the Hospital received an overpayment of
$800.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 207 of the 257 selected outpatient claims that we
reviewed. These errors resulted in overpayments of $153,443.

Incorrectly Billed as Outpatient

The Manual, chapter 3, § 10.4, states that Part A covers certain items and nonphysician services
furnished to inpatients and consequently the inpatient prospective payment rate covers these
services.

For 172 of the 257 selected claims, the Hospital incorrectly billed Medicare Part B for outpatient
services provided on the date of an inpatient admission that should have been included on the
Hospital’s inpatient (Part A) claims to Medicare. The Hospital stated that this occurred because it



                                                  6
did not fully implement its billing system to meet changes in Medicare requirements. As a result
of these errors, the Hospital received overpayments of $69,365.

Incorrectly Billed Evaluation and Management Services, Number of Units, or Healthcare
Common Procedure Coding System Codes

The Manual, chapter 12, § 30.6.6(B), states that a Medicare contractor pays for an E&M service
that is significant, separately identifiable, and above and beyond the usual preoperative and
postoperative work of the procedure.

The Manual, chapter 1, § 80.3.2.2, states: “In order to be processed correctly and promptly, a
bill must be completed accurately ….” In addition, chapter 4, § 20.4, of the Manual states: “The
definition of service units … is the number of times the service or procedure being reported was
performed.”

For 16 of the 257 selected claims, the Hospital incorrectly billed Medicare for E&M services that
were not significant, separately identifiable, and above and beyond the usual preoperative and
postoperative work of the procedures (13 errors), an incorrect number of units (2 errors), or
incorrect HCPCS code (1 error). The Hospital attributed this to human error or staff confusion
about the interpretation of billing requirements. As a result of these errors, the Hospital received
overpayments of $33,983.

Services Not Billable to Medicare

Section 1862(a)(12) of the Act states that no payment may be made under part A or part B for
any expenses incurred for items or services “where such expenses are for services in connection
with the care, treatment, filling, removal, or replacement of teeth or structures directly supporting
teeth ….”

For 4 of the 257 selected claims, the Hospital incorrectly billed Medicare for the removal of
teeth. The Hospital stated that these were isolated cases that occurred in the operating room and
that the Hospital no longer performs dental services. As a result of these errors, the Hospital
received overpayments of $25,326.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3,
explain how a provider should report no-cost and reduced-cost devices under the OPPS. For
services furnished on or after January 1, 2007, CMS requires the provider to report the modifier
“FB” and reduced charges on a claim that includes a procedure code for the insertion of a

                                                   7
replacement device if the provider incurs no cost or receives full credit for the replaced device.
If the provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.

For 2 of the 257 selected claims, the Hospital received full credit for replaced devices but did not
report the “FB” modifier and reduced charges on its claims. The Hospital attributed this to
human error and incorrect processing. As a result of these errors, the Hospital received
overpayments of $13,167.

Incorrectly Billed Observation Services

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

The Manual, chapter 4, § 290.1, states: “Observation services are covered only when provided
by the order of a physician or another individual authorized by State licensure law and hospital
staff bylaws to admit patients to the hospital or to order outpatient services ….” Section 290.2.2
states: “Observation time begins at the clock time documented in the patient’s medical record,
which coincides with the time that observation care is initiated in accordance with a physician’s
order .… Observation time ends when all medically necessary services related to observation
care are completed.” Reported observation time would not include the time patients remain in
the hospital after treatment is finished, for custodial care, or for other social reasons.”

For 11 of the 257 selected claims, the Hospital incorrectly billed Medicare for observation
services which either occurred prior to obtaining a signed physician’s order (8 errors) or for time
the patients remained in the hospital after treatment was finished (3 errors). The Hospital
attributed this to its outpatient observation monitoring process. As a result of these errors, the
Hospital received overpayments of $9,308.

Incorrectly Billed Outpatient Services With Modifier -59

The Manual, chapter 1, § 80.3.2.2, states: “In order to be processed correctly and promptly, a
bill must be completed accurately ….” In addition, chapter 23, § 20.9.1.1, states: “The ‘-59’
modifier is used to indicate a distinct procedural service …. This may represent a different
session or patient encounter, different procedure or surgery, different site or organ system,
separate incision/excision, or separate injury (or area of injury in extensive injuries).”

For 2 of the 257 selected claims, the Hospital incorrectly billed Medicare for HCPCS codes,
appended with modifier -59, which were already included in the payments for other services
billed on the same claim. The Hospital stated that this occurred because of staff confusion about
the interpretation of billing requirements. As a result of these errors, the Hospital received
overpayments of $2,294.




                                                 8
RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $736,220, consisting of $582,777 in overpayments for
       87 incorrectly billed inpatient claims and $153,443 in overpayments for 207 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

LAHEY CLINIC COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital concurred with most of our findings and
recommendations but disagreed that it incorrectly billed 11 claims for inpatient short stays. For
these claims, we maintain that the stays did not meet the medical necessity requirements for
inpatient admissions.

The Hospital stated that it is committed to complying with all regulations and standards
governing Federal health care programs, improving internal controls, and proactively auditing
and monitoring to minimize the risk of errors. We acknowledge the Hospital’s efforts to
implement stronger controls. The Hospital’s comments are included in their entirety as
Appendix B.




                                                9
APPENDIXES
                    APPENDIX A: RISK AREAS REVIEWED AND BILLING ERRORS


                                                                         Claims
                                                          Value of        With     Value of
                                               Selected   Selected       Over-      Over-
                    Risk Area                  Claims     Claims        payments   payments
Inpatient

Short Stays                                      61         $247,158       56        $228,684

Same-Day Discharges and Readmissions             30          757,632       22         199,977
Manufacturer Credits for Replaced Medical
                                                 15          440,996       4          111,440
Devices
Claims Billed With High-Severity-Level
                                                 21          372,063       4           36,097
Diagnosis-Related Group Codes
Claims Paid in Excess of Charges                  3           94,725       1            6,579

Transfers                                         2           16,862       0                  0

 Inpatient Totals                                132       $1,929,436      87        $582,777


Outpatient
Claims Billed With Services Performed During
                                                 192        $100,042      172         $69,365
the DRG Payment Window
Claims Paid in Excess of Charges                  5           68,934       3           32,940

Dental Services                                   4           25,326       4           25,326
Manufacturer Credits for Replaced Medical
                                                  9          217,533       2           13,167
Devices
Claims Billed With Observation Services
                                                 11           25,280       11           9,308
That Resulted in Outlier Payments
Claims Billed With Modifier -59                   5           21,894       2            2,294
Claims Billed With Evaluation and Management
                                                 30           22,751       13           1,043
Services
Services Billed During Home Health Episodes       1              418       0                  0

 Outpatient Totals                               257        $482,178      207        $153,443



 Inpatient and Outpatient Totals                 389       $2,411,614     294        $736,220
                                                                                                                Page 1 of 2
                          APPENDIX B: LAHEY CLINIC COMMENTS



tDI   Lahey                                                                   Lahey Clinic Medica l Cen ter                  p 78 1 744.5 100
                                                                              41 Mal l Road                                  www.lah ey.org
                                                                              Bur l ington . MA 01805
       CLINIC

 March 6, 2013                                                         . \ lt•nrhing hm"fJitn/ of Fujh l ·nhwnity Sr/IIJo/uj'.\lrdiriur


 Michael J. Armstrong
 Regional Inspector General for Audit Services
 Office of Inspector General
 Office of Audit Services, region 1
 JFK Federal Building •
 15 New Sudbury Street, Room 2425
 Boston, MA 02203

 Report Number: A-01-12-00502

 Dear Mr. Armstrong:

 Lahey Clinic Hospital, Inc. (Lahey) appreciates the opportunity to comment on the Government's report .
 Lahey is committed to complying with all regulations and standards governing Federal health care
 programs, improving internal controls, and proactively auditing and monitoring to minimize the risk of
 errors.

 Lahey's responses to the Government's specific recommendations are set forth below . Unless otherwise
 stated, Lahey accepts the Governments findings and is processing the necessary adjustments through its
 Medicare Administrative Contractor, NHIC.

 Incorrectly Billed as Inpatient: Lahey identified 48 claims from the OIG's sample that did not meet the
 criteria for an inpatient admission due to the fact that the physician order or the medical record
 contained ambiguities. Lahey fully appreciates and recognizes the need to clearly document the
 physician's decision making process . Lahey has and will continue to educate appropriate staff and
 physicians on Medicare regulations and guidance in this area . In addition, Lahey has instituted a process
 by which case managers and physician advisors reviewinpatient determinations and evaluate the
 documentation in the medical record.

 Lahey respectfully disagrees with the Government' s assertion that inpatient stays were inappropriate in
 the other 11 cases and believes that, for each, the medical record supports the criteria for inpatient
 admission. CMS recognizes in its own guidance that the decision to admit a patient is a complex medical
 judgment that calls for the consideration of many factors, including the patient' s medical history and
 current medical needs, the types of facilities available to inpatients and outpatients, the hospital's by­
 laws and admission policies, and the relative appropriateness of treatment in each setting . Lahey's
 decision is determined by national screening criteria, evidenced -based practice, clinical judgment and
 consideration of the beneficiary's medical history and presenting condition for each of these claims, and
 it is Lahey's position that each claim met the criteria for inpatient admission .

 Incorrectly Billed as Separate Inpatient Stays: Lahey has created additional controls to ensure that the
 Case Management Department reviews all same day discharges and readmissions. In addition, Case
 Management created its own daily readmission report .

 Incorrectly billed diagnosis-Related Group Codes: Lahey has establ ished controls to provide for
 increased management oversight and qual ity assurance in coding .
                                                                                                       Page 2 of 2




Inpatient Credit for Replaced Medical Device Not Reported: Lahey received and reported to CMS a
credit for one claim sampled by the Government; however this claim had not been reported to CMS
prior to being sampled by the Government.

Incorrectly Billed as Outpatient: Lahey has established controls to provide for increased management
oversight and quality assurance in Patient Financial Services.

Incorrectly Billed Evaluation and Management Services, Number of Units, or Healthcare Common
Procedure Coding System Codes: Lahey will provide education in those areas where errors occurred and
explore the use of flags to highlight claims that were paid in excess of charges .

Services Not Billable to Medicare: Lahey identified that 4 isolated claims for Dental Services were
performed in the operating room and as such, Dental costs were charged that missed our billing edits.
These Dental services are no longer provided.

Outpatient Credit for Replaced Medical Device Not Reported: Lahey had not applied the "FB" modifier
on 2 claims sampled by the Government when it re-processed the claims . Lahey provided education to
its Patient Financial Services team on how to re-process these types of credits.

Incorrectly Billed Observation Services: Lahey fully appreciates and recognizes the need to clearly
document the physician's orders for observation. Lahey has and will continue to educate appropriate
staff and physicians on Medicare regulations and guidance in this area. In addition, Lahey has instituted
a process by which case managers and physician advisors review observation orders to ensure
completeness and accuracy.

Incorrectly Billed Outpatient Services with Modifier- 59: The Government identified 2 isolated claims
within their sample that contained an error. Lahey provided education to its Patient Financial Services
and Coding teams on the regulatory guidelines for the use of modifier- 59.



Lahey Clinic Hospital, Inc. and Affiliates is an organization recognized nationally for its quality of service .
That recognition is directly attributable to the commitment of all our dedicated health care
professionals, members of our support staff and the members of our research community. Lahey is also
committed to compliance with applicable Federal and State laws and regulations and the Government's
Medicare compliance review .

Please do not hesitate to contact me if you have any further questions or require additional information.

Sincerely,

~9/~                                                  ·-
JamesJ. Kenney                  ~
Director of Internal Audit
Lahey Clinic Hospital, Inc.
